     DEPARTMENT OF HEALTH & HUMAN SERVICES                          Office of Inspector General

                                                                    Office of Audit Services, Region V
                                                                    233 North Michigan Avenue
                                                                    Suite 1360
                                                                    Chicago, IL 60601



July 9, 2010

Report Number: A-05-09-00062

Mr. Daniel Houston
President
Houston Companies, Inc
1481 South Grant Avenue
Crawfordsville, IN 47933

Dear Mr. Houston:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Houston Companies Medicare Cost Reports for
Calendar Year 2005. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Lynn Barker, Audit Manager, at (317) 226-7833 ext 21 or through email at
Lynn.Barker@oig.hhs.gov. Please refer to report number A-05-09-00062 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Daniel Houston



Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF

      INSPECTOR GENERAL





REVIEW OF HOUSTON COMPANIES 

 MEDICARE COST REPORTS FOR 

     CALENDAR YEAR 2005





                      Daniel R. Levinson

                       Inspector General


                          July 2010

                        A-05-09-00062

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY


BACKGROUND


Prior to 1998, Medicare paid the cost of individual services provided to Skilled Nursing Facility
(SNF) patients using a retrospective reimbursement system. Currently, Medicare pays SNFs a
daily rate to cover skilled services provided to Medicare patients during each day of a covered
SNF stay; however, it does not base payments on the cost of individual services. Instead, SNFs
complete an assessment form called a Minimum Data Set that places a patient in a specific
payment group, known as a Resource Utilization Group, based on the patient’s care and resource
needs.

Providers are required to fill out and submit cost reports on an annual basis. The accuracy of the
cost reports is critical. The Centers for Medicare & Medicaid Services (CMS) uses this
information for various rate-setting and payment-refinement activities.

Houston Companies, Inc. (Houston), a private for-profit organization, owned and operated two
SNFs and a home office, as well as private assisted-living apartments and a pharmacy located in
Crawfordsville, Indiana during calendar year (CY) 2005. Houston reported costs totaling $12.2
million on Medicare cost reports for its two SNFs and its home office during CY 2005.

OBJECTIVE

Our objective was to determine whether Houston reported costs on its CY 2005 Medicare cost
reports that complied with Federal requirements.

SUMMARY OF FINDINGS

Houston did not always report costs on its CY 2005 Medicare cost reports that complied with
Federal requirements. Of the $12,187,097 Houston reported on its CY 2005 Medicare cost
reports, $156,733 did not comply and was therefore, unallowable.

The cost reports were inaccurate because Houston did not implement sufficient internal controls
and procedures to ensure that it reported Medicare costs in compliance with Federal
requirements.

RECOMMENDATIONS

We recommend that Houston:

   •	 submit revised CY 2005 Medicare cost reports to CMS and reduce costs by $156,733 that
      were unallowable, and

   •	 implement internal controls and procedures to ensure that Medicare cost reports include
      costs that comply with Federal requirements.




                                                 i
AUDITEE COMMENTS

In its comments on our draft report, Houston disagrees that bad debts totaling $126,746 did not
comply with Federal requirements and are therefore, unallowable. Houston stated that all of the
bad debts related to covered services as they were Medicare coinsurance payments due from
Medicare Part A residents. Houston agreed that the remaining $29,987 in expenses did not
comply and agreed with our second recommendation.

Houston’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Houston’s comments, we maintain our findings and recommendations are valid.
The bad debts were classified as non-Medicare services on Houston’s Medicaid cost reports.
Furthermore, Houston Companies did not make adjustments to remove the bad debts from its
2005 Medicare cost reports as it did in prior years.




                                               ii
                                                         TABLE OF CONTENTS


INTRODUCTION ......................................................................................................................... 1 


     BACKGROUND ...................................................................................................................... 1 

       Reporting of Costs on the Medicare Cost Report ............................................................... 1 

       Federal Requirements ......................................................................................................... 1 

       Houston Companies Organizational and Corporate Structure ............................................ 2 


     OBJECTIVE, SCOPE, AND METHODOLOGy .................................................................... 2 

        Objective ............................................................................................................................ 2 

        Scope .................................................................................................................................. 2 

        Methodology ...................................................................................................................... 2 


FINDINGS AND RECOMMENDATIONS ................................................................................ 3 


     lJNALLOW ABLE COSTS ............................................................................... .:•.'..:.. :~. : ........... 3 

           Federal Requirements .......................................................................... :..:...:: ..:..... :...... 3 

           Unallowable Costs Reported .................................................:::.:.......-.::.:..:.::.:.............. 4 


     HOUSTON INTERNAL CONTROLS .................................................... :~.:: . :....: .................... 6 

                                                                                                                                                       .. 

     RECOMMENDATIONS .......................................................................... : :. ~ ............. ~~ ........... 6 


     AUDITEE COMMENTS .......................................................................................................... 6 


     OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 6 


APPENDIX: AUDITEE COMMENTS 





                                                                            111
                                        INTRODUCTION


BACKGROUND


Prior to 1998, Medicare paid the cost of individual services provided to Skilled Nursing Facility
(SNF) patients using a retrospective reimbursement system. Currently, Medicare pays SNFs a
daily rate to cover skilled services provided to Medicare patients during each day of a covered
SNF stay; however, it does not base payments on the cost of individual services. Instead, SNFs
complete an assessment form called a Minimum Data Set that places a patient in a specific
payment group, known as a Resource Utilization Group, based on the patient’s care and resource
needs.

Skilled nursing facilities provide daily services that include skilled nursing care; speech,
occupational, and physical therapies; and other services. Services must be provided by, or under
the direct supervision of, skilled nursing or rehabilitation professionals and be for a condition
previously treated at a hospital.

Reporting of Costs on the Medicare Cost Report

Although Medicare pays SNFs in accordance with the prospective payment system, providers are
required to fill out and submit cost reports in compliance with Federal cost reporting
requirements regulations (42 CFR §§ 413.20 and 413.24) on an annual basis. The Provider
Reimbursement Manual (part 2, chapter 35) provides detailed instructions to SNFs to complete
the Medicare cost reports. The instructions require providers to make adjustments and remove
all costs not related to patient care, as well as all costs related to luxury items or services because
these costs are not allowable for Medicare purposes.

The accuracy of the cost reports is critical. The Centers for Medicare & Medicaid Services
(CMS) uses the cost report information for various rate-setting and payment-refinement activities
that include updating price indexes for revising Medicare payment rates, projecting future
Medicare expenditures, and determining adequate deductibles and premiums. In addition, the
Government Accountability Office, the Office of Management and Budget, and other Federal
agencies depend on accurate cost report information when conducting audits and evaluating
SNFs.

Federal Requirements

Federal regulations (42 CFR § 413.24(a)) state providers must submit adequate cost data. This
cost data must be based on a provider’s financial and statistical records, which must be capable
of verification by qualified auditors. The cost data must be based on an approved method of cost
finding and on the accrual basis of accounting. Pursuant to 1861(v)(1)(A) of the Social Security
Act (the Act), the reasonable cost of any services shall be the cost actually incurred, excluding
there from any part of incurred cost found to be unnecessary in the efficient delivery of needed
health services. Also pursuant to 1888(e)(2)(A)(i) of the Act, covered skilled nursing facility
services are post-hospital extended care services including supervised nursing care, bed and
board, therapy services, medical social services, supplies and other services necessary to the
health of the patients.


                                                  1

Houston Companies Organizational and Corporate Structure

Houston Companies, Inc. (Houston), a private for-profit company, owned and operated two
SNFs and a home office during calendar year 2005. Houston is comprised of the following five
corporations:

   •	 Houston Companies, Inc. (Home Office) is the home office located in Crawfordsville,
      Indiana.
   •	 DHE, Inc., doing business as Ben Hur nursing home (Ben Hur), is a SNF located in
      Crawfordsville, Indiana.
   •	 Houston Development, Inc., doing business as Williamsburg nursing home

      (Williamsburg), is a SNF located in Crawfordsville, Indiana.

   •	 Houston Group Homes, Inc. consists of five group homes including Cedar Pointe, located
      in Lebanon, Indiana; Market Hall, located in Crawfordsville, Indiana; Penn Hall, located
      in Crawfordsville, Indiana; Pine Ridge, located in Lebanon, Indiana; and White Hall,
      located in Crawfordsville, Indiana.
   •	 Village Drug Store, Inc. (Village Drug Store) located in Crawfordsville, Indiana, supplies
      prescription drugs and other medical supplies primarily to Houston’s nursing homes and
      group homes and their patients.

Houston submitted Medicare cost reports for its home office and its two SNFs for CY 2005
totaling $12,187,097.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Houston reported costs on its CY 2005 Medicare cost
reports that complied with Federal requirements.

Scope

We reviewed Houston’s two SNFs (Ben Hur and Williamsburg) and home office Medicare cost
reports which identified costs totaling $12,187,097 for CY 2005. We did not review any costs
associated with Houston Group Homes, Inc. or the Village Drug Store, Inc.

We limited our internal control review to Houston’s policies, procedures, and controls over
reporting costs reported on the Medicare cost reports for CY 2005.

We performed fieldwork at Houston’s home office in Crawfordsville, Indiana.

Methodology

To accomplish our objective, we:



                                                2

   •	 reviewed applicable Federal laws, regulations, and guidelines;

   •	 reviewed Houston’s policies and procedures related to reporting Medicare expenses on its
      cost reports;

   •	 reconciled the cost reports to supporting documentation and accounting records for CY
      2005;

   •	 interviewed Houston officials to identify and understand policies and procedures for
      completing Medicare cost reports;

   •	 traced judgmentally selected transactions totaling $2,012,216 to payroll reports, canceled
      checks, timesheets, pay notices, vouchers, invoices, and other supporting documentation;

   •	 reviewed bonuses and hours worked summaries to determine if bonuses and hours paid
      were reasonable in accordance with Houston’s policy; and

   •	 computed cost adjustments for nursing homes and the home office and coordinated the
      results of our audit with the auditee.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Houston did not always report costs on its CY 2005 Medicare cost reports that complied with
Federal requirements. Of the $12,187,097 Houston reported on its CY 2005 Medicare cost
reports, $156,733 did not comply and was therefore, unallowable.

The cost reports were inaccurate because Houston did not implement sufficient internal controls
and procedures to ensure that it reported Medicare costs in compliance with Federal
requirements.

UNALLOWABLE COSTS

Federal Requirements

Federal regulations (42 CFR § 413.89) state that bad debts, charity, and courtesy allowances are
deductions from revenue and are not to be included in allowable costs. However, bad debts
attributable to the deductibles and coinsurance amounts are reimbursable under the program if
related to covered services.




                                                3

Federal regulations (42 CFR § 413.24(c)) state that adequate cost information must be obtained
from the provider’s records to support payments made for services furnished to beneficiaries.

Federal regulations (42 CFR § 413.9) state that all payments to providers of services must be
based on the reasonable cost of services covered under Medicare and related to the care of
beneficiaries. Reasonable cost included all necessary and proper costs incurred in furnishing the
services, subject to principles relating to specific items of revenue and cost.

Pursuant to section 2105.10 of part 1 of the Provider Reimbursement Manual, costs incurred by
providers for fines or monetary penalties imposed for violations of Federal, State, or local laws
are not allowable.

Unallowable Costs Reported

Houston reported $156,733 for unallowable costs on its Medicare cost reports for CY 2005.

                    Table 1: Summary of Unallowable Costs Reported
                          Unallowable Costs                 CY 2005
               Bad Debts                                    $126,746
               Real Estate and Property Taxes
                                                                        11,760
               Mortgage Interest and Insurance For Rental
               Properties                                                7,384
               Non-Operational Facility                                  3,513
               Village Drug Store Utilities                              3,136
               Vehicles Not Used For Patient Care                        2,836
               Overtime Paid Not Associated With Patient
               Care                                                       641
               Traffic Ticket                                             467
               Non-Medicare Facilities                                    250
               Total                                                 $156,733

Bad Debts

Houston reported unallowable costs totaling $126,746 on the Ben Hur ($72,150) and
Williamsburg ($54,596) SNF cost reports for bad debts related to Medicaid. These costs were
unallowable because the costs represented services not covered under Medicare.

Unsupported Real Estate and Property Taxes

Houston overstated real estate and property taxes by $11,760 on the Ben Hur SNF cost report
($8,731) and on the Williamsburg SNF cost report ($3,029). These costs were unallowable
because the reported taxes were not supported by the tax statements.




                                                4

Insurance for Rental Properties and Mortgage Interest

Houston reported $7,384 on the home office and Ben Hur cost reports for insurance policies
($5,642) for rental properties and mortgage interest ($1,742).These costs were unallowable
because they were unrelated to Medicare patient care.

Non-Operational Facility

Houston reported $3,513 on the Ben Hur SNF cost report for 2005 for utility expenses related to
a non-operational facility, which Houston had closed in 2002. These costs were unallowable
because they were unrelated to Medicare patient care,

Village Drug Store

Houston reported $3,136 on the Ben Hur SNF cost report for CY 2005 for the Village Drug
Store’s utility expenses, which were not directly associated with Medicare patient care activities.
These costs were unallowable because they were unrelated to Medicare patient care,

Vehicles Not Used for Patient Care

Houston reported $2,836 related to vehicles costs on the home office cost report and the Ben Hur
and Williamsburg SNFs cost reports for CY 2005. The costs included license plates ($1,151)
and interest from financing ($1,685) for vehicles that were not used for patient care.

         Table 2: Costs Reported for Vehicles Unrelated to Medicare Patient Care
                  Cost Report and Associated Expenses        CY 2005
                Home Office -License Plates                    $679
                Williamsburg -License Plates                    472
                Ben Hur – Interest from Financing             1,685
                Total                                        $2,836

These costs were unallowable because they were unrelated to Medicare patient care,

Employee Overtime Not Related to Patient Care

Houston reported $641 for employees’ paid overtime for hours not associated with patient care.
These costs were unallowable because they were unrelated to Medicare patient care,

                     Table 3: Overtime Unrelated to Medicare Patient Care
                                 Cost Report            CY 2005
                          Williamsburg                     $521
                          Ben Hur                            88
                          Home Office                        32
                          Total                            $641




                                                 5

Traffic Ticket

Houston reported $467 on the Williamsburg 2005 cost report for a traffic ticket on its laundry
truck. Pursuant to section 2105.10 of part 1 of the Provider Reimbursement Manual, this cost is
unallowable because it is a fine imposed for violating local laws.

Non-Medicare-Related Facilities

Houston reported $250 on the home office cost report for bonuses related to Houston’s private,
non-Medicare-related facilities for CY 2005. These costs were unallowable because they were
unrelated to Medicare patient care,

HOUSTON INTERNAL CONTROLS

The cost reports were inaccurate because Houston did not implement sufficient internal controls
and procedures to ensure that it reported Medicare costs in compliance with Federal
requirements.

RECOMMENDATIONS

We recommend that Houston:

   •	 submit revised CY 2005 Medicare cost reports to CMS and reduce costs by $156,733 that
      were not allowable, and

   •	 implement internal controls and procedures to ensure that Medicare cost reports include
      costs that comply with Federal requirements.

AUDITEE COMMENTS

In its comments on our draft report, Houston disagrees that bad debts totaling $126,746 did not
comply with Federal requirements and are therefore, unallowable. Houston stated that all of the
bad debts related to covered services as they were Medicare coinsurance payments due from
Medicare Part A residents. Houston agreed that the remaining $29,987 in expenses did not
comply and agreed with our second recommendation.

Houston’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Houston’s comments, we maintain our findings and recommendations are valid.
The bad debts were classified as non-Medicare services on Houston’s Medicaid cost reports.
Furthermore, Houston Companies did not make adjustments to remove the bad debts from its
2005 Medicare cost reports as it did in prior years.




                                               6

APPENDIX

                                                                                Page 1 of 6
                      APPENDIX: AUDITEE COMMENTS



                              HOUSTON COMPANIES, INC.
                             HEALTH CARE PROVIDERS SINCE 1956 

                                  1481 SOUTH GRANT AVENUE 

                                          P. O. BOX 661 

                                CRAWFORDSVILLE, INDIANA 47933 

                           PHONE: (765) 362-0905 - FAX: (765) 362-1268 





June 25, 2010


James C. Cox, Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Audit Services, Region V
233 North Michigan Avenue
Suite 1360
Chicago, IL 60601

Re: Written comments regarding Report Number: A-05-09-00062

Mr. Cox,

Enclosed please find Houston Companies' written comments regarding the OlG draft
report entitled "Review of Houston Con panies Medicare Cost Reports for Calendar Year
2005." The electronic copy requested in your letter will be emailed to Lynn Barker,
Audit Manager.

FINDINGS AND RECOMMENDATIONS

    • 	 Nonconcurrence: Houston disagrees that $156,733 did not comply and was
        therefore, Unallowable. Houston disagrees the bad debts totaling $126,746 did not
        comply and are therefore, unallowable.
    • 	 Concurrence: Houston agrees $29,987 did not comply.


UNALLOWABLE COSTS REPORTED

Bad Debts

As stated on the bottom of page 3 of the draft audit, "bad debts attributable to the
deductibles and coinsurance amounts are reimbursable under the program if related to
covered services." All the costs totaling $126,746 on the Ben Hur ($72,150) and
Williamsburg ($54,596) SNF cost reports for bad debts related to covered services as
they were Medicare coinsurance due from Medicare Part A residents. Consequently,
                                                                                     Page 2 of 6



Houston does not concur with the bad debt adjustment as these costs are allowable per
page 3 of the audit as well as the regulations attached (Attachment 1).

 Unsupported Real Estate and Property Ta.:'(es

Houston will not dispute the Real Estate and Property taxes adjustment. This error
occurred due to delays in receiving our Real and Property tax statements. We based our
Real Estate and Property ta'\( expense on prior year statements and received the current
year's statements after the companies' year ends. We did adjust Real Estate and Property
tax expense in subsequent years to correct the over reporting in 2005.

Insurance for Rental Properties and Mortgage Interest

TI1e rental properties are residential houses that border Ben Hur and are owned by Ben
Hur and are rented to employees and non-employees as single family residences.

Non-Operational Facility

Houston will not dispute the Non-Operational Facility adjustments. The expenses for this
closed facility are coded to non-patient related accounts to be removed from the Medicare
Cost reports. These bills were miscoded and consequently were not removed.

Village Drug Store

Two related party businesses rent an office building owned by Ben Hur. Per the lease,
Ben Hur paid for the utilities. Houston failed to remove the utility cost in its preparation
of the cost reports. The lease has been amended so that the related businesses pay their
utilities directly.

Vehicles Not Usedfor Patient Care

Houston will not dispute the vehicle costs adjustments.

Employee Overtime Not Related to Patient Care

Houston will not dispute the overtime adjustments.

Traffic Ticket

Houston will not dispute the traffic ticket.

Non-Jvfedicare-Related Facilities

Houston will not dispute the Non-Medicare-Related Facilities.




                                               2
                                                                                            Page 3 of 6


                                                 --------. - - - - - - - - - - - - - --   - - - - ------ - - - -----­
As stated on page i of the draft audit, the reporting of $29,987 of unallowable costs had
no affect on Houston' s 2005 Medicare income. Medicare no longer pays the cost of
individual services provided to SNF patients using a retrospective reimbursement system.

Houston contends the errors totaling $29,987 had little to no affect on CMS in their data
collection used for various rate-setting and payment-refinement activities. To require
Houston to submit revised CY 2005 Medicare cost reports in 20 10 for the sole purpose of
rate-setting and payment-refmement activities that were done four years ago seems like a
waste of resources.

Upon the receipt of the final audit from the OIG, Houston:

   • 	 will contact the HHS action official to detennine if it will be required to submit 

       revised CY 2005 Medicare cost reports to CMS . lfthe action official determines 

       they are required, Houston will submit revised reports and reduce costs by 

       $29,987 that were not allowable utilizing its current Medicare Cost Report 

       software, 

   • 	 will implement internal controls and procedures to ensure that Medicare cost 

       reports include costs that comply with Federal requirements. 



Sincerely,



           on, President
Houston Co Jpanies, Inc.

Enclosure




                                            3
                                                                               ;; --   ~.   #'




                                                                                                 Page 4 of 6




  Atta.Ghin.en.+                                                I
Centers for Medicare & Medicaid Services, HHS                                          §413.89
  (i) Applicable hold-harmless percentage.     (ii) After repayment period. Once the
The applicable hold-harmless percent­        penalty repayment is completed, the
ages for each year in which the resi­        qualifying entity's FTE reverts back to
dency reduction plan is in effect are as     its original 1996 FTE cap.
follows:
                                               [64 FR 44855, Aug. 18. 1999, as amended a.t 69
   (1) 100 percent for the first and sec­      FR 49265, Aug. 11, 2004]
ond residency training years;
   (2) 75 percent for the third year;        §413.S9 Bad debts, charity, and cour­
   (3) 50 percent for the fourth year; and      tesy allowances.
   (4) 25 percent for the fifth year.
   m Payments to qualifying entities. An­      (a) PrinCiple. Bad debts, charity. and
nual incentive payments through cost         courtesy allowances are dedUctions
reports will be made to each hospital        from revenue and are not to be in­
that is or is part of a qualifying entity    cluded in allowable cost. However. sub­
over the 5-year reduction period if the      ject to the limitations described under
q'.Ialifying entity meets the annual and     paragraph (h) of this section and the
cumulative reduction targets specified       exception for services described under
in its voluntary reduction plan.             paragraph (i) of this section. bad debts
  (k) Penalty for noncompliance-(l)          attributable to the deductibles and co­
Nonpayment. No incentive payment             insurance amounts are reimbursable
may be made to a qualifying entity for       under the program.
a residency training year if the quali­        (b) Definitions-(l) Bad debts. Bad
fying entity has failed to reduce the        debts are amounts considered to be
number of FTE residents according to         uncollectible from accounts and notes
its voluntary residency reduction plan.      receivable that were created or ac­
  (2) Repayment of incentive amounts.        quired in providing services. "Accounts
The qualifying entity 1s liable for re­      receivable" and "notes receivable" are
payment. of t,he total amount of incen­      designations for claims arising from
tive payments it has received if the         the furnishing of services. and are col­
qua.lifying entity­                          lectible in money in the relatively near
  (i) Fails to reduce the base number of     future.
residents by the percentages specified         (2) Charity allowances. Charity allow­
in paragraphs (g)(2) and (g)(3) of this      ances are reductions in charges made
section by the end of the fifth resi­        by the provider of services because of
dency training year; or                      the indigence or medical indigence of
  (ii) Increases the number of FTE resi­     the patient. Cost of free care (uncom­
dents above the number of residents          pensated services) furnished under a
permitted under the voluntary resi­          Hill-Burton obligation are considered
dency reduction plan as of the comple­       as charity allowances.
tion date of the plan.                         (3) Courtesy allowances. Courtesy al­
  (1) Postplan determination of FTE caps     lowances indicate a reduction in
for qualifying entities-(l) No penalty im­   charges in the form of an allowance to
posed. Upon completion of a voluntary        physiCians, clergy, members of reli­
residency reduction plan, if no penalty      gious orders, and others as approved by
is imposed. the qualifying entity's 1996     the governing body of the provider, for
FTE count is permanently adjusted to         services received from the provider.
equal the unweighted FTE count used          Employee fringe benefits, such as hos­
for direct GME payments for the last         pitalization and personnel health pro­
residency training year in which a           grams. are not considered to be cour­
qualifying entity participates.              tesy allowances.
  (2) Penalty imposed. Upon completion         (c) Normal accounting treatment: Re­
of the voluntary residency reduction         duction in revenue. Bad debts, charity.
plan­                                        and courtesy allowances represent re­
  (1) During repayment period. If a pen­     ductions in revenue. The failure to col­
alty is imposed under paragraph (k)(2)       lect charges for services furnished does
of this section, during the period of re­    not add to the cost of providing the
payment. the qualifying entity's FTE         services. Such costs have already been
count 1s as specified in paragraph (1)(1)    incurred in the production of the serv­
of this section.                             ices.

                                         757
                                                                                               .. .   . ."


                                                                                        Page 5 of 6




§413.S9                                            42 CFR Ch. IV (l 0- 1-09 Edition)

   (d) Requirements fOT Medicare. Under     cordance with sect.ion 106(b) of Pub. L.
Medicare, costs of covered services fur­    97-248 (enacted September 3, 1982), this
nished beneficiaries are not to be borne    sentence is effective with respect to
by individuals not covered by the Medi­     any costs incurred under Medicare ex­
care program, and conversely, costs of      cept that it does not apply to costs
services provided for other than bene­      which have been allowed prior to Sep­
ficiaries are not to be borne by the        tember 3, 19B2, pursuant to a final court
Medicare program. Uncollected rev­          order affirmed by a United States
enue related to services furnished to       Court of Appeals.) The cost to the pro­
beneficiaries of the program generally     vider of employee fringe-benefit pro­
means the provider has not recovered       grams is an allowable element of reim­
the cost of services covered by that       bursement.
revenue. The failure of beneficiaries to
                                              (h) Limitations on bad debts-(l) Hos­
pay the deductible and coinsurance
amounts could result in the related        pitals. In determining reasonable costs
costs of covered services being borne by   for h ospitals, the amount of bad debt
other than Medicare beneficiaries. To      otherwise treated as allowable costs (as
assure that such covered service costs     defined in paragraph (e) of this section)
are not borne by others, the costs at­     is reduced­
tributable to the deductible and coin­        (1) For cost reporting periods begin­
surance amounts that remain unpaid         ning during fiscal year 1998, by 25 per­
are added to the Medicare share of al­     cent;
lowable costs. Bad debts arising from         (ii) For cost reporting periods begin­
other sources are not allowable costs.     ning during fiscal year 1999, by 40 per­
  (e) Criteria jor allowable bad debt. A   cent;
bad debt must meet the following cri­         (iii) For cost reporting periods begin­
teria to be allowable:                     ning during fiscal year 2000, by 45 per­
   (1) The debt must be related to cov­    oent;and
ered services and derived from deduct­        (iv) For cost reporting periods begin­
ible and coinsurance amounts.              ning during a subsequent fiscal year,
   (2) The provider must be able to es­
tablish that reasonable collection ef­     by 30 percent.
forts were made.                              (2) SleWed nursing facilities. For cost
   (3)   The     debt  was     actually    reporting periods beginning during fis­
uncollectible when claimed as worth­       cal year 2006 or during a subsequent fis­
less.                                      cal year, the amount of skilled nursing
   (4) Sound business judgment estab­      facility bad debts for coinsurance oth­
lished that there was no likelihood of     erwise treated as allowable oosts (as
recovery at any time in the future.        defined in paragraph (e) of this section)
  (f) Charging oj bad debts and bad debt   for services furnished to a patient who
recoveries. The amounts uncollectible      is not a dual eligible individual is re­
from specific beneficiaries are to be      duoed by 30 percent. A dual eligible in­
charged off as bad debts in the account­   dividual is defined for this section as
ing period in Wllich the accounts are      an individual that is entitled to bene­
deemed to be worthless. In some cases      fits under Part A of Medicare and is da­
an amount previously written off as a      termined eligible by the State for med­
bad debt and allocated to the program      ical assistance under Title XIX of the
may be recovered in a subsequent ac­       Act as described under paragraph (2) of
counting period; in such cases the in­     the definition of a "full-benefit dual el­
come therefrom must be used to reduce      igible individual" at §423.772 of this
the cost of beneficiary services for the   chapter.
period in which the collection is made.       (i) Exception. Bad debts arising from
  (g) Charity allowances. Charity allow­
ances have no relationship to bene­        covered services paid under a reason­
ficiaries of the Medicare program and      able charge-based methodology or a fee
are not allowable costs. These charity
allowances include the costs of uncom­
pensated services furnished under a
Hill-Burton obligation. (Note: In ac­

                                       758
•   •   •   0--   "   .'




                                                                                                                      Page 6 of 6




                           Centers for Medicare & Medicaid Services, HHS                                    §413.98
                           schedule are not reimbursable under              under arrangements between such or­
                           the program.                                     ganizations and a provider for the per­
                           [51 FR 34793, Sept. 30, 1986, as amended at 57
                                                                            formance of such services without di­
                           FR 33898, July 31, 1992; 60 FR 63189, Dec. B,    rect remuneration from the provider to
                           1995; 63 FR 41005, July 31, 1998; 66 FR 32195,    such individuals is allowable as all op­
                           June 13, 2001. RedeSignated at 69 FR 49254,       erating expense for the determination
                           Aug. 11, 2004, and amended at 71 FR 48H2,         of allowable cost subject to the limita­
                           Aug. 18, 2006; 71 FR 69785, Dec. 1, 2006]        tion contained in paragraph (b) of this
                                                                            section. The amounts allowed are not
                           §413.90 Research costs.                          t,o exceed those paid others for similar
                             (a) Principle. Costs incurred for re­          work. Such amounts must be identifi­
                           search purposes, over and above usual            able in the records of the institutions
                           patient care, are not includable as al­          as a legal obligatioll for operating ex­
                           lowable costs.                                   penses.
                             (b) Application. (1) There are numer­             (b) Limitations: Services of nonpaid
                           ous sources of financing for health-re­          workers. The services must be per­
                           lated research activities. Funds for this        formed on a regular, scheduled basis in
                           purpose are provided under many Fed­             positions customarily held by full-time
                           eral programs and by other tax-sup­              employees and necessary to enable the
                           ported agencies. Also, many founda­              provider to carry out the functions of
                           tions, voluntary health agencies, and            normal patient care and operation of
                           other private organizations, as well as          the institution. The value of services of
                           individuals, sponsor or contribute to            a type for which providers generally do
                           the support of medical and related re­           not remunerate individuals performing
                           search. Funds available from such                such services is not allowable as a re­
                           sources are generally ampl e to meet             imbursable cost under the Medicare
                           basic medical and hospital research              program. For example, donated serv­
                           needs. A further consideration is that           ices of individuals in distributing
                           quality review should be assured as a            books and magazines to patiellts, or in
                           condition of governmental support for            serving in a provider canteen or cafe­
                           research. Provisions for such review             teria or in a provider gift shop, would
                           would introduce special difficulties in          not be reimbursable.
                           the Medicare programs,                              (c) Application. The following illus­
                             (2) If research is conducted in con­           trates how a provider would determine
                           junction with, and as a part of, the             an amount to be allowed under this
                           care of patients, the costs of usual pa­         principle: The prevailing salary for a
                           tient care and studies, a.nalyses, sur­          lay nurse working in Hospital A is
                           veys, and related activities to serve the        $5,000 for the year. The lay nurse re­
                           provider's administrative and program            ceives no maintenance or special per­
                           needs are allowable costs in the deter­          quisites. A sister working as a nurse
                           mination of payment under Medicare.              engaged in the same activities in the
                                                                            same hospital receives maintenalloe
                           [51 FR 34793, Sept. 30, 1986, as amended at 61
                           FR 63748, Dec. 2, 1996)
                                                                            and special perquisites Wllich cost the
                                                                            hospital $2,000 and are included in the
                           §413.92 Costs of surety bonds.                   hospital's allowable operating costs.
                                                                            The hospital would then include in its
                              Costs incurred by a provider to ob­           records an additional $3,000 to bring
                           t ain a surety bond required by part 489,        the value of the services rendered to
                           subpart F of this chapter are not in­            $5,000. The amount of $3,000 would be
                           cluded as allowable costs.                       allowable if the provider assumes obli­
                           [63 FR 310, Jan. 5, 1998)                        gation for the expense under a written
                                                                            agreement with the sisterhood or other
                           §413.94 Value of services of nonpaid             religious order oovering payment by
                              workers.                                      the provider for the services.
                              (a ) Principle. The value of services in
                           positions customarily held by full-time          § 413.98 Pur chase discounts and allow­
                           employees performed on a r egular,                   ances, and refunds of expenses.
                           scheduled basis by individuals as                  (a) Principle. Discounts and allow­
                           llonpa id members of organizations               ances received on purchases of goods or

                                                                        759 

